HHS/OIG-Audit-"Review of Interest Earned on Advances of Federal Funds by the University of Hawaii July 1, 1997 through June 30, 2000"(A-09-01-04004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Interest Earned on Advances of Federal Funds by the University
of Hawaii July 1, 1997 through June 30, 2000," (A-09-01-04004)
December 10, 2001
Complete
Text of Report is available in PDF format (3.8 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit
of the cash management procedures used by the University of Hawaii (UH) to
determine the interest earned on advances of Federal funds.  The objective
of our audit was to determine whether the UHs cash management polices and
procedures were in accordance with Office of Management and Budget (OMB)
Circular A-110.  We found that the UH did not have the procedures required
by OMB Circular A-110 to effectively determine its interest earned on advances
of Federal funds.   Although we identified areas where the UH needs
to improve its cash management, our analysis indicated that the UH did not
have significant positive cash balances and, therefore,  there
was no material impact of the UH improperly calculating interest earned during
our audit period.  We recommended that the UH establish written procedures
on the timing and amount of advance requests and calculate interest earnings
on advances of Federal funds based on daily positive cash balances.  The
UH concurred with our recommendations.